No. 21-__________
In the Supreme Court of the United States
Ira Wilkins,
Petitioner,
v.
United States of America,
Respondent
Certificate of Service
I, Shira Kieval, an attorney appointed to represent the Petitioner under the
Criminal Justice Act, hereby certify that, on June 30, 2021, I served the Petition for
Writ of Certiorari and accompanying Motion for Leave to Proceed In Forma Pauperis
on all parties required to be served under Supreme Court Rule 29.4(a).
I completed service by causing a copy of the documents to be enclosed in an
envelope and be delivered to Federal Express for delivery within 3 calendar days, and
by causing an electronic version of the documents to be transmitted via email to:
Elizabeth Prelogar, Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2000
SupremeCtBriefs@usdoj.gov
/s Shira Kieval
Shira Kieval
Assistant Federal Public Defender
Counsel of Record for Petitioner

